   National Endowment for the Arts
      Office of Inspector General
          Semiannual Report




October 1, 2013 through March 31, 2014
                                           April 30, 2014




      On behalf of the National Endowment for the Arts (NEA) Office of Inspector General
(OIG), I am pleased to present our Semiannual Report to Congress for the period ended
March 31, 2014.

      During this semiannual period, a peer review of our audit organization was completed.
We received a clean opinion on the quality assurance system our audit organization uses to
produce its reports. In addition, we provided the NEA agency head a summary of our
perspective on the most significant management and performance challenges facing the
organization for inclusion in NEA’s Fiscal Year 2013 Performance and Accountability Report.
Our reports can be found at http://arts.gov/oig/audits-and-reviews.

      NEA OIG issued one audit report and three evaluation reports on grant recipients’
management of NEA funds, which included nine recommendations during the reporting period.
There were no investigations opened or in progress. We were contacted and processed two
FOIA requests and two hotline inquiries.

       As in the past, NEA management has been responsive in working with NEA OIG to
resolve all proposed recommendations. I appreciate management’s support and look forward to
working with management in our ongoing efforts to promote economy and efficiency in agency
programs.




Tonie Jones
Inspector General
INTRODUCTION AND DEFINITIONS

NATIONAL ENDOWMENT FOR THE ARTS

Founded in 1965, the National Endowment for the Arts (NEA) offers assistance to a wide
range of non-profit organizations and individuals that carry out arts programming, as well
as to State Arts Agencies and Regional Arts Organizations. NEA supports exemplary
projects of excellence in the artistic disciplines of artist communities, dance, design, folk
and traditional arts, literature, media arts, museums, music, opera, presenting and
multidisciplinary works, theater and musical theater, and visual arts, as well as for arts
education projects and local arts agencies. Grants are awarded for specific projects rather
than for general operating or seasonal support. Most NEA grants are matched dollar for
dollar with non-Federal funds. For Fiscal Year 2014, NEA received an appropriation of
$146.021 million through the Consolidated Appropriations Act, 2014.

OFFICE OF INSPECTOR GENERAL

THE MISSION OF THE OFFICE OF INSPECTOR GENERAL IS TO PROMOTE
ECONOMY, EFFICIENCY, AND EFFECTIVENESS BY DETECTING AND PREVENTING
WASTE, FRAUD, AND ABUSE.


The Inspector General Act of 1978 (IG Act), as amended (5 USC App.), established
independent, objective units within Federal agencies for oversight purposes. In 1988, the
Congress amended the IG Act (Public Law 100-504) to establish statutory Inspectors
General at additional departments and agencies, as well as at designated Federal entities
and establishments, including NEA.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008
(Public Law 110-409), which amends the previous IG Act of 1978 by enhancing the
independence of the Inspectors General and creating a Council of the Inspectors
General on Integrity and Efficiency (CIGIE).

NEA OIG is required by law to prepare a semiannual report summarizing the activities
of the office during the preceding six-month period. The report is sent to the NEA
Chairman, the National Council on the Arts, and NEA’s appropriating and authorizing
committees. This dual reporting requirement facilitates and ensures the independence of
the NEA OIG.
This semiannual report summarizes NEA OIG's major activities, initiatives, and results
for the six-month period ended March 31, 2014. NEA OIG consists of four full-time
positions, the Inspector General (IG) and three auditors. Currently, NEA OIG is fully
staffed. There is no investigator or general counsel on the staff. To provide a reactive
investigative capability, we have a Memorandum of Understanding with the General Ser-
vices Administration’s Office of Inspector General (GSA OIG) to provide coverage on a
reimbursable basis, as needed. (No investigative coverage from GSA OIG was needed
during the recent six-month period.) We have a Memorandum of Understanding with the
National Credit Union Administration’s Office of Inspector General (NCUA OIG) that
details procedures to be used for providing NEA OIG with legal services pursuant to the
new requirements reflected in the 2008 Act. A NCUA OIG staff member has been as-
signed to provide such services on an as-needed basis. We also have a Memorandum of
Understanding with the International Trade Commission's Office of Inspector General
(ITC OIG) to provide technical assistance with our evaluation of NEA's compliance with
the Federal Information Security Management Act of 2002 on a reimbursable basis, as
needed.




                             SEMIANNUAL REPORT TO CONGRESS - 2
WE PERFORM THE FOLLOWING SERVICES:


ATTESTATIONS involve examining, reviewing, or applying agreed-upon procedures on a
 subject matter, or an assertion about a subject matter. Attestations can have a broad
 range of financial or nonfinancial objectives such as NEA’s compliance with specific laws
 and regulations, validation of performance against performance measures or
 reasonableness of cost.

PERFORMANCE AUDITS address the efficiency, effectiveness, and economy of NEA’s
 programs, activities, and functions; provide information to responsible parties to improve
 public accountability; facilitate oversight and decision making; and initiate corrective
 actions as needed.

FINANCIAL AUDITS provide an independent assessment of whether financial statements
 are presented fairly in accordance with generally accepted accounting principles.
 Reporting on financial audits in accordance with Government Auditing Standards also
 includes reports on internal control, and compliance with provisions of laws, regulations,
 and contracts as they relate to financial transactions, systems and processes.

INVESTIGATIONS are conducted based on alleged or suspected fraud, waste, abuse or
 gross mismanagement, employee and contractor misconduct, and criminal and civil
 violations of law that have an impact on NEA’s programs and operations. NEA OIG
 refers matters to the U.S. Department of Justice whenever there is reasonable grounds to
 believe there has been a violation of Federal criminal law. NEA OIG also identifies fraud
 indicators and recommends measures to management to improve the agency’s ability to
 protect itself against fraud and other wrongdoing.
                                                 evaluations. One report, to an NEA grantee
                                                 contained six recommendations. Three
                                                 reports were issued relating to NEA programs
                                                 and operations, of which one contained three
                                                 recommendations. Two of the
                                                 recommendations to NEA were implemented
                                                 during this reporting period. None of the
                                                 reports issued during this period included
                                                 questioned costs.

                                                 Table 1 (page 11) provides a summary of
                                                 reports issued during this period.

                                                 Completed Audits and Reports

  AUDITS, INSPECTIONS,
                                                 A-14-01 - Audit of the NEA Fiscal Year
EVALUATIONS AND RELATED
                                                 2013 Financial Statements
       ACTIVITIES
                                                 The Accountability of Tax Dollars Act of 2002
Audits, evaluations and other reviews
                                                 requires NEA OIG or an independent
conducted by NEA OIG personnel during
                                                 external auditor, as determined by the IG, to
the current and prior periods have disclosed a
                                                 audit the agency financial statements. Under
few instances of deficient financial
                                                 a competitively awarded contract monitored
management practices in some organizations
                                                 by NEA OIG, Leon Snead & Company, an
that received NEA grants. Among these
                                                 independent certified public accounting and
were:
                                                 management consulting firm, received a one-
                                                 year contract, with a four-year option, in
   Not accounting for costs separately by
                                                 January 2011 to audit NEA’s financial
    grant award;
                                                 statements. The audit was conducted
   Reported grant project costs did not agree
                                                 following Generally Accepted Government
    with accounting records;
                                                 Auditing Standards (GAGAS) and Office of
   Personnel costs charged to grant projects
                                                 Management and Budget (OMB) Bulletin No.
    were not supported by adequate
                                                 07-04, Audit Requirements for Federal Financial
    documents; and
                                                 Statements, as revised. In addition, the firm
   Internal controls need strengthening.
                                                 provided reports on internal controls and
                                                 compliance with laws and regulations for
During the six-month period ending
                                                 matters relevant to the financial statement
March 31, 2014, NEA OIG issued four
                                                 audit. The 2013 Financial Statement Audit
reports which contained nine
                                                 Report was issued December 4, 2013, and
recommendations based on audits and
                                                 resulted in an unqualified (clean) opinion.



                             SEMIANNUAL REPORT TO CONGRESS - 4
Completed Evaluations and Reports                 SCE-14-01 Financial Management System
                                                  and Compliance Evaluation on Selected
R-14-01 NEA’s Compliance with the                 NEA Grants to BRIC Arts/Media/Bklyn,
Federal Information Security                      Inc. (NY)
Management Act of 2002 (FISMA)
                                                  Our evaluation concluded that BRIC Arts did
FISMA requires that each Federal agency           not comply with the financial management
develop, document, and implement an agency        system requirements established by OMB and
-wide program for providing security for the      NEA for Federal awards. We identified
information and information systems that          several areas of noncompliance, including not
support the operations and assets of the          separately identifying Federal funds in its
agency, including those provided or managed       financial system, not maintaining personnel
by another agency, contractor, or other           activity reports (time and effort) and reporting
source. This information is provided to senior    unallowable costs. The report included six
management and others to enable them to           recommendations to improve compliance.
determine the effectiveness of overall security
programs.                                         L-14-02 Review of NEA’s Compliance
                                                  Under the Improper Payments
To ensure the confidentiality and integrity of    Elimination and Recovery Act (IPERA)
data entrusted to NEA, and to develop
strategies/best practices for improving           The Improper Payments Information Act (IPIA) of
information security. NEA OIG completed a         20021 and OMB Circular A-123, Appendix C,
full FISMA evaluation in FY 2013 using the        Management’s Responsibility for Internal Control:
most recent applicable FISMA requirements         Requirements for Effective Measurement and
and guidelines published by OMB, the U.S.         Remediation of Improper Payments, require
Department of Homeland Security and the           agencies to review all programs and activities,
National Institute of Standards and               identify those that are susceptible to
Technology. The evaluation concluded that         significant erroneous payments, and
although NEA made progress in complying           determine an annual estimated amount of
with FISMA, some additional improvements          erroneous payments. The IPIA was followed
were needed. NEA OIG made three                   by the Improper Payments Elimination and
recommendations. One recommendation               Recovery Act (IPERA) in 2010 and a series of
remains open. Corrective actions for the          OMB memoranda which included
remaining recommendation is in process.           requirements for IGs to annually review and
                                                  report on their agency’s compliance with
                                                  IPERA. We issued our annual report for
                                                  2014. The IPERA review report is posted on
                                                  our web site at http://arts.gov/oig/reports/
                                                  specials.
                                                  1   P.L. 111-204.
Completed Inspections and Reports               Table 2 (page 12) provides a summary of
                                                issued reports with recommendations that
NEA OIG did not conduct any inspections         questioned costs.
during the recent six-month period.
                                                Reports Issued with Recommendations that
Audit Resolution and Corrective Actions         Funds Be Put to A Better Use

During this semiannual reporting period,        There were no reports with recommendations
NEA continued to make progress in               that funds be put to a better use.
implementing open recommendations. Based
on the appropriate evidence and                 Table 3 (page 13) provides a summary of the
documentation management provided to            issued reports with recommendations that
NEA OIG to support its implementation of        funds be put to a better use.
recommendations, the NEA OIG closed
eleven recommendations related to six           Reports Issued with Recommendations Open
different OIG reports.                          for More than 180 days

Reports Issued with Questioned Costs            At the end of the period, there were 16
                                                recommendations from three reports to NEA
At the beginning of the six-month period,       relating to its information security program
there was one report awaiting a management      which remain open for more than 180 days.
decision to allow or disallow questioned
costs:                                          NEA offices are scheduled for relocation in
                                                May 2014. The relocation will divert
LS-13-04 DC Commission on the Arts and          Information and Technology Management
Humanities.                                     resources through the completion of the
                                                move, therefore, the implementation of
At the beginning of the period, a               remaining corrective actions relating to
management decision to allow or disallow        information security and the evaluation of
questioned costs for two awards, in the         those corrective actions will be impacted.
amount of $48,000 with a potential refund of
$24,000, had not been made. During the          Table 4, (page 14-15) provides a summary of
current period, the grantee provided            reports with recommendations open 180 days
documentation to support all of the             or more on which corrective actions are still
questioned costs for both awards.               in progress.
Management accepted the documentation to
support the questioned costs, in the amount
of $48,000, eliminating the potential refund.




                             SEMIANNUAL REPORT TO CONGRESS - 6
Audits, Inspections, Evaluations and             Other Planned Reviews
Related Activities Planned or In-Progress
                                                 Annually, NEA awards more than 2,000
NEA OIG will complete two mandatory              grants and cooperative agreements exceeding
reviews during the next reporting period that    $100 million, funding the arts in all 50 states
will assess the NEA’s financial oversight and    and six U.S. jurisdictions, including urban and
information security.                            rural areas, and reaching civilian and military
                                                 populations. Therefore, grants management
FY 2014 Audit of the NEA Financial               and oversight is crucial to the mission of the
Statements — A financial statement audit is      NEA and continued public trust.
required annually under the Accountability of
Tax Dollars Act of 2002. We contract with an     In FY 2014, NEA OIG plans to continue to
independent public accountant to perform         evaluate NEA’s policies and procedures for
this work. NEA OIG provides oversight on         the management of its programs and
the contract. The purpose of the audit is to     operations. NEA OIG will also continue to
express an opinion on the financial statements   evaluate award recipients’ financial
of NEA for the fiscal year ending                management system and recordkeeping
September 30, 2014. The audit will also test     practices to determine compliance with the
the internal controls over financial reporting   requirements established by the Office of
and assess compliance with selected laws and     Management and Budget (OMB), and NEA’s
regulations.                                     General Terms and Conditions for Grants and
                                                 Cooperative Agreements to Organizations.
FY 2014 Evaluation of NEA’s Compliance
with the Federal Information Security Act        NEA OIG will also review NEA’s
of 2002 — FISMA requires an annual               compliance under other relevant Federal
evaluation of each agency’s information          guidelines such as the Improper Payments
security program and practices to determine      Elimination Act and Recovery Act and the
their effectiveness. The evaluation is           Government Charge Card Abuse Prevention
performed by the IG or by an independent         Act of 2012.
external auditor.

To assist us in conducting this review, we
have a Memorandum of Understanding with
another Federal OIG, to provide technical
assistance on a reimbursement basis. The
review includes evaluating the adequacy of
NEA’s information security program and
practices for its major systems.
INVESTIGATIVE ACTIVITIES                           Inspection and Evaluation Committee and
                                                   Roundtable. The IG participates in periodic
The IG is authorized by the IG Act to receive      meetings designed to address issues common
and investigate allegations of employee            to smaller OIGs.
misconduct as well as fraud, waste and abuse
occurring within NEA programs and                  The IG also participated in CIGIE’s Reform
operations. Matters of possible wrongdoing         Initiatives Working Group, composed of
are referred to NEA OIG in the form of             OIGs that oversee grant programs at twenty
allegations or complaints from a variety of        Federal agencies. The working group
sources, including NEA employees, other            provided comments on the impact of
government agencies and the general public.        proposed guidance, OMB Uniform Guidance:
Reported incidents of possible fraud, waste        Administrative Requirements, Cost Principles, and
and abuse can give rise to administrative, civil   Audit Requirements, for Federal Awards, on our
or criminal investigations.                        mission of ensuring accountability over
                                                   Federal funds.
Investigative Summary
                                                   In addition, to develop effective oversight
NEA OIG did not open any new allegation            strategies for Federal awards, our staff
cases during the recent six-month period. No       participated in the Single Audit Roundtable,
criminal investigations were performed during      Interagency Fraud and Risk Data Mining,
the period. Table 5 (page 16) provides a           Federal Audit Executive Council, and the
summary of investigative activities during this    Department of Justice Grant Fraud and
period.                                            Federal Hotline working groups.


OTHER ACTIVITIES                                   Significant Management Decisions


Activities within the Inspector General            Section 5(a)(12) of the IG Act requires that if
Community                                          the IG disagrees with any significant
                                                   management decision, such disagreement
NEA OIG has allocated resources for                must be reported in the semiannual report to
responding to information requests from and        Congress. Further, Section 5(a)(11) of the IG
for the Congress and other agencies. We            Act requires that any decision by management
have also participated in various efforts by the   to change its response to a significant
Council of the Inspectors General on               resolved audit finding must also be disclosed
Integrity and Efficiency (CIGIE), a council of     in the semiannual report. For this reporting
inspectors general that promotes                   period, there were no significant management
collaboration on integrity, economy, and           decisions made with which NEA OIG
efficiency issues that transcend individual        disagreed, and management did not revise any
agencies. The IG is a member of the CIGIE          earlier decisions on NEA OIG audit.




                              SEMIANNUAL REPORT TO CONGRESS - 8
Review of Legislation and Regulations                NEA OIG was the subject of a peer review of
                                                     its audit organization during the current
Section 4(a)(2) of the IG Act authorizes the         period. The U.S. Consumer Product Safety
IG to review and comment on proposed                 Commission’s Office of Inspector General
legislation or regulations relating to the agency    conducted the review and issued its system
or, upon request, affecting the operations of        review report on December 13, 2013. In the
NEA OIG. During this reporting period,               U.S. Consumer Product Safety Commission’s
NEA OIG provided analyses and written                OIG’s opinion, the system of Quality control
commentaries on NEA and other                        for our audit organization in effect for the
government publications/reports and                  year ended March 31, 2013, had been suitably
regulations.                                         designed and complied with to provide our
                                                     office with reasonable assurance of
Peer Review Activity                                 performing and reporting in conformity with
                                                     applicable professional standards in all
Section 989C of the Dodd-Frank Act                   material respects. We received a peer review
contains additional semiannual reporting             rating of pass.
requirements pertaining to peer review
reports. Federal IGs are required to engage in       The report’s accompanying letter of comment
peer review processes related to both their          contained five recommendations that, while
audit and investigative operations. In keeping       not affecting the overall opinion, were
with Section 989C, NEA OIG is reporting              designed to further strengthen the system of
the following information related to its peer        quality control in NEA OIG. We agreed with
review activities. These activities cover our        four of five findings and recommendations
role as both the reviewed and the reviewing          and have completed corrective actions. The
OIG and relate to both audit and investigative       system review report is posted on our Web
peer reviews.                                        site at http://arts.gov/oig/reports/external-
                                                     peer-reviews.
Audit Peer Reviews
                                                     Web Site
On a 3-year cycle, peer reviews are conducted
of an OIG audit organization’s system of             NEA OIG maintains an ongoing Internet
quality control in accordance with the               presence (www.arts.gov/about/OIG/
CIGIE’s Guide for Conducting External Peer           Contents.html) to assist and inform NEA
Reviews of the Audit Organizations of Federal        employees, grantees and the public. The site
Offices of Inspector General. These guidelines are   includes pages for Reporting Fraud, Waste and
based on requirements in the Government              Abuse; Reports; Guidance; Recovery Act; Career
Auditing Standards. Federal audit organizations      Opportunities, Frequently Asked Questions and
can receive a rating of pass, pass with              Other Resources.
deficiencies, or fail.
TABLE 1: SUMMARY OF REPORTS ISSUED DURING THE REPORTING PERIOD


                                                                         Funds
                                                                        Put To A
                                                  Questioned Unsupported Better
Report No. Report Date        Report Title          Costs       Costs     Use
 A-14-01   Dec 4, 2013   Audit of NEA                   0        0         0
                         Financial Statements
                         as of September 30,
                         2013 and 2012


SCE-14-01 Mar 25, 2014 Financial Management             0        0         0
                       System and
                       Compliance
                       Evaluation of NEA
                       Grants to BRIC Arts
                       (NY)

 R-14-01   Feb 4, 2014   FY 2013 Evaluation of          0        0         0
                         NEA’s Compliance
                         with Federal
                         Information Systems
                         Management Act of
                         2002

 L-14-02   Mar 21, 2014 Review of NEA’s                 0        0         0
                        Compliance Under the
                        Improper Payments
                        Elimination and
                        Recovery Act
                        (IPERA)




                         SEMIANNUAL REPORT TO CONGRESS - 10
TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS


                                                                    Dollar Value


                                               Number of Questioned Unsupported    Potential
                                                Reports    Costs       Costs       Refunds


A. For which no management decision               1        48,000         0         24,000
   has been made by the commencement
   of the reporting period


B. Which were issued during the                   0          0            0
   reporting period


    Subtotals (A+B)                               1        48,000         0         24,000



C. For which a management decision was            1        48,000         0         24,000
   made during the reporting period


  . (i) dollar value of the disallowed costs      0          0            0



    (ii) dollar value of the cost not             1        48,000         0         24,000
    disallowed


D. For which no management decision               0          0            0           0
   was made by the end of the reporting
   period

E. Reports for which no management                0          0            0           0
   decision was made within six months
   of issuance
TABLE 3: INSPECTOR GENERAL ISSUED REPORTS WITH
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                      Number
                                                                        of
                                                                      Reports   Dollar Value
A. For which no management decision has been made by the                 0           0
   commencement of the reporting period


B. Which were issued during this reporting period                        0           0

C. For which a management decision was made during the                   0           0
   reporting period


    (i) dollar value of recommendations that were agreed to by           0           0
    management


    - based on proposed management actions                               0           0

    - based on proposed legislative action                               0           0

    (ii) dollar value of recommendations that were not agreed to by      0           0
    management


D. For which no management decision has been made by the end             0           0
   of the reporting period


E. Reports for which no management decision was made within six          0           0
   months of issuance




                              SEMIANNUAL REPORT TO CONGRESS - 12
TABLE 4: REPORTS WITH RECOMMENDATIONS ON WHICH
CORRECTIVE ACTION HAS NOT BEEN COMPLETED

Section 5(a)(3) of the IG requires an identification of each significant recommendation
described in previous semiannual reports for which corrective action has not been completed.
Table 1 below shows the corrective actions management has agreed to implement but has not
completed for recommendations that are open 180 days or more.

The information in this table is based on (1) information provided by the relevant NEA
followup official which administers management’s audit resolution activities and (2) NEA
OIG’s determination of closed recommendations. Recommendations are closed when (a) the
followup official notifies NEA OIG that corrective actions are complete or (b) in the case of
recommendations that NEA OIG determines to be particularly significant, after NEA OIG
confirms that corrective actions have been completed and are responsive.
                                                       Brief Summary of Significant
Report                                             Recommendations/Planned Corrective
Number         Report Date        Report Title                   Actions
 R-13-03       Feb 15, 2013      Evaluation of    NEA should improve its perimeter security
                                 NEA’s            by implementing ongoing scanning to
                                 Perimeter        detect vulnerabilities and remediate current
                                 Security         web server vulnerabilities. The report
                                                  included seven recommendations; all of
                                                  which are in progress. Completion of
                                                  corrective actions will be impacted by the
                                                  relocation of NEA offices in May 2014.

R-13-02        Feb 15, 2013      Evaluation of    NEA should develop policy to ensure that
                                 NEA’s            those who manage its systems continually
                                 Patching         track the patch status and deploy patches as
                                 Program          soon as they are available. The report
                                                  included six recommendations; all of which
                                                  are in progress. Completion of corrective
                                                  actions will be impacted by the relocation of
                                                  NEA offices in May 2014.
TABLE 4: REPORTS WITH RECOMMENDATIONS ON WHICH
CORRECTIVE ACTION HAS NOT BEEN COMPLETED(CONTINUED)

                                                       Brief Summary of Significant
  Report                                               Recommendations/Planned
  Number     Report Date        Report Title                 Corrective Actions
R-13-01    Dec 17, 2012    FY 2012 Evaluation      NEA should develop policy
                           of NEA’s                implementing Homeland Security
                           Compliance with the     Presidential Directive 12, Policy for a
                           Federal Information     Common Identification Standard for Federal
                           Security Act of 2002    Employees and Contractors, including the
                                                   use of Personal Identity Verification
                                                   smartcards for logical access to NEA’s
                                                   network and information systems. Also
                                                   implement the use of automatic
                                                   encryption on all NEA mobile/computer
                                                   devices that carry Agency information.
                                                   The report included four
                                                   recommendations; three of the four
                                                   recommendations remain open.
                                                   Correction actions are in progress,
                                                   however, implementation will be
                                                   impacted by the relocation of NEA
                                                   offices in May 2014.




                           SEMIANNUAL REPORT TO CONGRESS - 14
TABLE 5: INVESTIGATIVE DATA


 Civil/Criminal Investigative Activities   Number of Recommendations
 Referrals to Prosecutors                                          0
 Civil Settlements                                                 0
 Investigative Recoveries                                          0
 Hotline Contacts

 Telephone Calls                                                   0
 Email                                                             2
 Standard Mail                                                     1
 Referred by Other Sources                                         0
 Referred to Other Sources                                         0
 Fax                                                               0

 Total                                                             3
 Freedom of Information Act Requests

 Requests Received                                                 2

 Requests Processed                                                0

 Total                                                             2
TABLE 6: SUMMARY OF INSPECTOR GENERAL REPORTING
REQUIREMENTS

    IG ACT
                    Reporting Requirement                                              Page(s)
   Reference

 Section 4(a)(2)    Review of legislation and regulations                                 9


  Section 5(a)(l)   Significant problems, abuses and deficiencies                        4-7


                    Recommendations with respect to significant problems, abuses
 Section 5(a)(2)                                                                         4-7
                    and deficiencies

                    Prior significant recommendations on which corrective actions
 Section 5(a)(3)                                                                       6 and 13
                    have not been completed

 Section 5(a)(4)    Matters referred to prosecutive authorities                           8

 Section 5(a)(5)    Summary of instances where information was refused                  N/A


                    List of audit reports by subject matter, showing dollar value of
 Section 5(a)(6)                                                                         10
                    questioned costs and funds put to better use

 Section 5(a)(7)    Summary of each particularly significant report                      4-6

                    Statistical tables showing number of reports and dollar value of
 Section 5(a)(8)                                                                         11
                    questioned costs


                    Statistical tables showing number of reports and dollar value of
 Section 5(a)(9)                                                                         12
                    recommendations that funds be put to better use


                  Summary of each audit issued before this reporting period for
 Section 5(a)(10) which no management decision was made by the end of the               N/A
                  reporting period

 Section 5(a)(11) Significant revised management decisions                              N/A

                    Significant management decisions with which the inspector
 Section 5(a)(12)                                                                       N/A
                    general disagrees




                                  SEMIANNUAL REPORT TO CONGRESS - 16
CONTACTING THE OFFICE OF INSPECTOR GENERAL




      HELP PROMOTE INTEGRITY, ECONOMY AND EFFICIENCY


  REPORT SUSPECTED FRAUD, WASTE, ABUSE OR MISMANAGEMENT


             COMPLAINT MAY BE MADE ANONYMOUSLY



                   OFFICE OF INSPECTOR GENERAL
                        400 7TH STREET, SW
                      WASHINGTON, D.C. 20506


                 TOLL-FREE HOTLINE: 1(877) 535-7448
                     LOCAL CALLS: (202) 682-5479
                         FAX: (202) 682-5649
                       EMAIL: OIG@ARTS.GOV




      ANY INFORMATION YOU PROVIDE WILL BE HELD IN CONFIDENCE.
 HOWEVER, PROVIDING YOUR NAME AND MEANS OF COMMUNICATING WITH YOU
              MAY ENHANCE OUR ABILITY TO INVESTIGATE.
